App. 1
United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

------------------------------------

No. 19-7122

September Term, 2019
FILED ON: April 24, 2020

CENTER FOR IMMIGRATION STUDIES,
APPELLANT,
V.

RICHARD COHEN AND HEIDI BEIRICH,
APPELLEES.
------------------------------------

Appeal from the United States District Court
for the District of Columbia
(No. 1:19-cv-00087)
------------------------------------

Before: ROGERS and GRIFFITH, Circuit Judges,
and RANDOLPH, Senior Circuit Judge.
JUDGMENT
PER CURIAM.
This case was considered on the record from the
United States District Court for the District of Columbia and the briefs of the parties. The Court has
accorded the issues full consideration and has determined that they do not warrant a published opinion.

App. 2
See D.C. CIR. R. 36(d). For the reasons set out below, it
is
ORDERED and ADJUDGED that the decision of
the district court be AFFIRMED.
The Center for Immigration Studies (CIS) claims
that two employees of the Southern Poverty Law Center (SPLC), Richard Cohen and Heidi Beirich, falsely
called CIS a “hate group” in a series of blog posts.
Compl. ¶ 19, J.A. 8-9. CIS says that SPLC sought to
“destroy CIS by ruining it financially,” and that SPLC’s
false statements caused the organization to lose over
$10,000 in donations. Id. ¶¶ 22-25, J.A. 9-10. CIS filed
suit, alleging that SPLC’s blog posts constituted wire
fraud, see 18 U.S.C. § 1343, and that the posts were
thus a “pattern of racketeering” under the Racketeer
Influenced and Corrupt Organizations Act (RICO), see
id. § 1962(d); Compl. ¶¶ 26-31, J.A. 10-11. The district
court dismissed the complaint for two reasons. First,
CIS failed to allege a “predicate [racketeering] offense”
because the complaint “failed to state a claim for wire
fraud.” Mem. Op. at 6-7, J.A. 19-20. Second, CIS failed
to allege a “pattern of racketeering activity.” Id. at 12,
J.A. 25.
We affirm on the district court’s second ground. To
state a claim under RICO, CIS must allege that SPLC
engaged in a “pattern of racketeering activity.” W. Assocs., Ltd. P’ship v. Mkt. Square Assocs., 235 F.3d 629,
633 (D.C. Cir. 2001). We’ve repeatedly said that it’s “virtually impossible” to identify such a pattern by alleging a “single scheme, single injury, and few victims.”

App. 3
Edmondson & Gallagher v. Alban Towers Tenants
Ass’n, 48 F.3d 1260, 1265 (D.C. Cir. 1995); W. Assocs.,
235 F.3d at 634; E. Savings Bank, FSB v. Papageorge,
629 F. App’x 1, 2 (D.C. Cir. 2015). Here, CIS concedes
that it alleges only a “single scheme and a single victim.” Reply Br. 20. And CIS’s only alleged “injury” is its
loss of charitable donations. This doesn’t add up to a
pattern of racketeering activity.
CIS offers two unpersuasive rejoinders. First, CIS
claims that it suffered “multiple (and ongoing) injuries” because each “lost donation is a new and separate
injury.” Id. But CIS may not multiply its injuries by
parsing them. See W. Assocs., 235 F.3d at 635. Each lost
donation flows from the same harm to CIS’s reputation, so the alleged decrease in charitable contributions is a single injury. Second, CIS says that Western
Associates and Edmondson “have no bearing” on this
case. CIS Br. 16-17. As CIS notes, a pattern of racketeering activity “may be proved by establishing either a
closed period of repeated conduct or a threat of future
criminal activity.” W. Assocs., 235 F.3d at 633 (internal
quotation marks omitted). CIS argues that Western Associates and Edmondson concerned closed patterns of
racketeering, while this case involves allegations of future criminal activity. CIS Br. 15-17. But CIS does not
allege that SPLC will engage in a separate “scheme,”
that SPLC will find other “victims,” or that CIS will
suffer a distinct future “injury.” CIS says that SPLC’s
“attacks are ongoing and will continue,” Compl. ¶ 28,
J.A. 10, but that allegation only identifies a single

App. 4
scheme inflicting a single injury on a single victim. CIS
thus fails to distinguish our prior cases.
Because CIS failed to allege a pattern of racketeering activity, it failed to state a claim. We express no
view on the district court’s holding that CIS failed to
allege a predicate racketeering offense. Mem. Op. at 811, J.A. 21-24.
For the foregoing reasons, we affirm the judgment
of the district court.
Pursuant to D.C. Circuit Rule 36, this disposition
will not be published. The Clerk is directed to withhold
issuance of the mandate herein until seven days after
resolution of any timely petition for rehearing or rehearing en banc. See FED. R. APP. P. 41(b); D.C. CIR.
R. 41(a)(1).
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY: /s/
Daniel J. Reidy
Deputy Clerk

App. 5
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
CENTER FOR
IMMIGRATION STUDIES,
Plaintiff,
v.
Richard COHEN, et al.,
Defendants.

)
)
)
)
)
)
)
)

Civil Action No.
19-0087 (ABJ)

MEMORANDUM OPINION
(Filed Sep. 13, 2019)
Plaintiff, the Center for Immigration Studies
(“CIS”), brought this civil suit against defendants,
Richard Cohen and Heidi Beirich, two individuals who
operate the Southern Poverty Law Center (“SPLC”),
alleging a violation of the Racketeer Influenced and
Corrupt Organizations Act (“RICO”), 18 U.S.C. § 1961
et seq. Compl. [Dkt. # 1]. Plaintiff alleges that defendants conspired to violate RICO when SPLC designated
CIS a “hate group” in 2016. Id. ¶¶ 13, 28.
Defendants moved to dismiss the complaint for
failure to state a claim under Federal Rule of Civil Procedure 12(b)(6), Defs.’ Mot. to Dismiss [Dkt. # 11] (“Defs.’
Mot.”), and plaintiff opposed the motion. Pl.’s Opp. to
Defs.’ Mot. [Dkt. # 13] (“Pl.’s Opp.”). Because plaintiff
has not sufficiently alleged a predicate offense or a pattern of racketeering, the Court will grant defendants’
motion to dismiss.

App. 6
BACKGROUND
The Center for Immigration Studies (“CIS”) is a
non-profit organization incorporated in Washington,
D.C. Compl. ¶ 3. CIS’s mission is “providing immigration policymakers, the academic community, news media, and concerned citizens with reliable information
about the social, economic, environmental, security,
and fiscal consequences of legal and illegal immigration into the United States. Id. ¶ 16.
The Southern Poverty Law Center (“SPLC”) is a
non-profit organization with its headquarters in Montgomery, Alabama. Compl. ¶ 7. The organization monitors and publishes investigative reports and expert
analyses on groups that it identifies as extremist “hate
groups.” Id. ¶ 11. Defendant Heidi Beirich leads SPLC’s
Intelligence Project, which publishes a blog called
“Hatewatch.” Id. ¶ 8. Richard Cohen is the President
of SPLC, and as plaintiff puts it, “collaborates with
Beirich in designating hate groups.” Id. ¶ 9.
Plaintiff alleges that Cohen and Beirich designated CIS to be a hate group in 2016, although they
knew that CIS did not meet SPLC’s definition for a
hate group. Compl. ¶¶ 13, 18. SPLC’s definition is “an
organization that – based on its official statements or
principles, the statements of its leaders, or its activities
– has beliefs or practices that attack or malign an entire class of people, typically for their immutable characteristics.” Id. ¶ 14. SPLC went on to publish thirteen
blog posts on Hatewatch in which SPLC “reiterat[ed]
that CIS was a hate group.” Id. ¶ 19.

App. 7
According to plaintiff, because being an immigrant
is not an immutable characteristic, Compl. ¶ 15, and
because the principles of CIS do not attack or malign
an entire class of people, defendants’ hate group designation constitutes the crime of wire fraud within the
meaning of 18 U.S.C. § 1343 because the blog posts
were transmitted on the internet. Id. ¶¶ 20, 28. Plaintiff asserts that defendants’ goal was to “wreck” and
“destroy” CIS financially. Id. ¶ 22.
Plaintiff asserts that it has suffered damages in
the form of lost donations. In 2018, the AmazonSmile
Program removed CIS from its list of non-profit organizations eligible for donations. Compl. ¶ 23. This has
resulted in a loss of “at least $10,000 in donations to
date and damages are ongoing.” Id. ¶ 24. Plaintiff also
asserts that Guidestar USA, Inc., a non-profit watchdog, published SPLC’s designation of CIS as a hate
group on its website. Id. ¶ 25. CIS undertook an effort
to remove the designation, and while GuideStar ultimately removed it, plaintiff maintains that this caused
a “diversion of resources from CIS’ mission and likely
deterred contributions.” Id.
On January 16, 2019, plaintiff filed a complaint in
this court alleging defendants conspired to violate
RICO when they falsely designated plaintiff as a hate
group in furtherance of a scheme to destroy plaintiff.
Compl. ¶¶ 28-31. Plaintiff seeks judgment against defendants for treble damages and “an injunction prohibiting defendants from again calling CIS a hate group
and requiring defendants to state on the SPLC website

App. 8
that CIS is not a hate group, pursuant to 18 U.S.C.
§ 1964(a).” Id. ¶¶ 32-33.
STANDARD OF REVIEW
“To survive a [Rule 12(b)(6)] motion to dismiss, a
complaint must contain sufficient factual matter, accepted as true, to state a claim to relief that is plausible
on its face.” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009),
quoting Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570
(2007). In Iqbal, the Supreme Court reiterated the two
principles underlying its decision in Twombly: “First,
the tenet that a court must accept as true all of
the allegations contained in a complaint is inapplicable to legal conclusions.” Iqbal, 556 U.S. at 678. And
“[s]econd, only a complaint that states a plausible
claim for relief survives a motion to dismiss.” Id. at 679,
citing Twombly, 550 U.S. at 556.
A claim is facially plausible when the pleaded factual content “allows the court to draw the reasonable
inference that the defendant is liable for the misconduct alleged.” Iqbal, 556 U.S. at 678. “The plausibility
standard is not akin to a ‘probability requirement,’ but
it asks for more than a sheer possibility that a defendant has acted unlawfully.” Id. A pleading must offer
more than “labels and conclusions” or a “formulaic recitation of the elements of a cause of action,” id., quoting
Twombly, 550 U.S. at 555, and “[t]hreadbare recitals of
the elements of a cause of action, supported by mere
conclusory statements, do not suffice.” Id.

App. 9
In evaluating a motion to dismiss under Rule
12(b)(6), a court must “treat the complaint’s factual allegations as true and must grant plaintiff ‘the benefit
of all inferences that can be derived from the facts
alleged.’ ” Sparrow v. United Air Lines, Inc., 216 F.3d
1111, 1113 (D.C. Cir. 2000) (internal citation omitted),
quoting Schuler v. United States, 617 F.2d 605, 608
(D.C. Cir. 1979); see also Am. Nat’l Ins. Co. v. FDIC, 642
F.3d 1137, 1139 (D.C. Cir. 2011), quoting Thomas v.
Principi, 394 F.3d 970, 972 (D.C. Cir. 2005). Therefore,
when considering a motion to dismiss, a court must
construe a complaint liberally in the plaintiff ’s favor.
Kowal v. MCI Commc’ns Corp., 16 F.3d 1271, 1276 (D.C.
Cir. 1994). Nevertheless, the court need not accept inferences drawn by the plaintiff if those inferences are
unsupported by facts alleged in the complaint, nor
must the court accept plaintiff ’s legal conclusions. Id.;
see also Browning v. Clinton, 292 F.3d 235, 242 (D.C.
Cir. 2002). In ruling upon a motion to dismiss for failure to state a claim, a court may ordinarily consider
only “the facts alleged in the complaint, documents
attached as exhibits or incorporated by reference in
the complaint, and matters about which the Court may
take judicial notice.” Gustave-Schmidt v. Chao, 226
F. Supp. 2d 191, 196 (D.D.C. 2002), citing EEOC v. St.
Francis Xavier Parochial Sch., 117 F.3d 621, 624-25
(D.C. Cir. 1997).
ANALYSIS
Defendants have made several arguments in support of their motion to dismiss: (1) plaintiff fails to

App. 10
allege a cognizable predicate offense under RICO;
(2) plaintiff fails to allege a pattern of racketeering
activity; (3) plaintiff fails to allege each defendant’s
participation in the scheme; (4) plaintiff fails to allege
proximate causation between the predicate acts and
the alleged harm; and (5) plaintiff ’s RICO claim is actually a defamation claim which is barred by the First
Amendment, as is the injunctive relief plaintiffs seek.
Defs.’ Mot. at 9-19.
The Court finds that plaintiff has failed to allege
the predicate offense and a pattern of racketeering
necessary for a RICO claim. Thus, plaintiff ’s lawsuit
fails and the Court need not address defendants’ other
arguments.
To state a claim for a RICO conspiracy, “the complaint must allege that (1) two or more people agreed
to commit a subsection (c) offense, and (2) a defendant
agreed to further that endeavor.” RSM Prod. Corp. v.
Freshfields Bruckhaus Deringer U.S. LLP, 682 F.3d
1043, 1048 (D.C. Cir. 2012), citing Salinas v. United
States, 522 U.S. 52, 65 (1997); see 18 U.S.C. § 1962(d).
Subsection (c) provides that:
It shall be unlawful for any person employed
by or associated with any enterprise engaged
in, or the activities of which affect, interstate
or foreign commerce, to conduct or participate,
directly or indirectly, in the conduct of such
enterprise’s affairs through a pattern of racketeering activity or collection of unlawful debt.
18 U.S.C. § 1962(c). Congress enacted § 1962(c), and
RICO generally, “to target . . . the exploitation and

App. 11
appropriation of legitimate business by corrupt individuals.” Yellow Bus Lines, Inc. v. Drivers, Chauffeurs
& Helpers Local Union 639, 883 F.2d 132, 139 (D.C. Cir.
1989), modified on other grounds, 913 F.2d 948 (D.C.
Cir. 1990), cert. denied, 501 U.S. 1222 (1991) (citation
omitted). Section 1964(c) allows “[a]ny person injured
in his business or property by reason of a violation of
section 1962” to bring a civil suit for treble damages,
costs, and attorneys’ fees. § 1964(c).
I.

Plaintiff has failed to allege a predicate
offense.

Plaintiff ’s RICO claim is predicated upon alleged
violations of the wire fraud statute, 18 U.S.C. § 1343,
Compl. ¶¶ 20, 28, which is listed as a predicate offense
under 18 U.S.C. 1961(1)(B). Section 1343 provides that:
Whoever, having devised or intending to devise any scheme or artifice to defraud, or for
obtaining money or property by means of false
or fraudulent pretenses, representations, or
promises, transmits or causes to be transmitted by means of wire, radio, or television communication in interstate or foreign commerce,
any writings . . . for the purpose of executing
such scheme or artifice, shall be fined under
this title or imprisoned not more than 20
years, or both.
Wire fraud requires proof of (1) a scheme to defraud; and (2) the use of an interstate wire communication to further the scheme. United States v. Philip
Morris USA Inc., 566 F.3d 1095, 1116 (D.C. Cir. 2009);

App. 12
United States v. Maxwell, 920 F.2d 1028, 1035 (D.C. Cir.
1990). “The crux of these requirements is that the wire
fraud statute makes criminal only breaches of duty
that are accompanied by a misrepresentation or nondisclosure that is intended or is contemplated to deprive the person to whom the duty is owed of some legally significant benefit.” United States v. Lemire, 720
F.2d 1327, 1335 (D.C. Cir. 1983), reaffirmed in United
States v. DeFries, 129 F.3d 1293 (D.C. Cir. 1997). False
or partially false statements can be “actionable fraud
if intentionally misleading as to facts,” Philip Morris,
566 F.3d at 1128, and the fraud results in action that
is “to the advantage of the misleader and the disadvantage of the misled.” Id., quoting Emery v. Am. Gen.
Fin., Inc., 71 F.3d 1343, 1348 (7th Cir. 1995).
“Inherent in any scheme to defraud is falsehood of
some kind.” Manax v. McNamara, 660 F. Supp. 657,
660 (W.D. Tex. 1987), aff ’d, 842 F.2d 808 (5th Cir. 1988).
While a “scheme to defraud” encompasses the element
of materiality of the falsehood, “[t]he common-law requirements of ‘justifiable reliance’ and ‘damages,’ . . .
plainly have no place in the federal fraud statutes.”
Neder v. United States, 527 U.S. 1, 24-25 (1999); see
Bridge v. Phoenix Bond & Indemnity Co., 553 U.S. 639,
650-661 (2008) (“[A] plaintiff asserting a RICO claim
predicated on mail fraud need not show, either as an
element of its claim or as a prerequisite to establishing
proximate causation, that it relied on the defendant’s
alleged misrepresentations.”). Essential to the scheme
to defraud is that “the defendant must have fraudulent
intent at the time of the charged” wiring. United States

App. 13
v. Coughlin, 610 F.3d 89, 97-98 (D.C. Cir. 2010) (discussing mail fraud statute); United States v. Autuori,
212 F.3d 105, 115 (2d Cir. 2000).
Defendants argue that plaintiff has failed to state
a claim for wire fraud, and instead, it has alleged “garden-variety defamation.” Defs.’ Mot. at 10. They maintain that “merely pleading the word ‘fraud’ does not
transform the public statements into fraud.” Defs.’ Reply in Supp. of Defs.’ Mot. to Dismiss [Dkt. # 14] at 4.
Plaintiff argues that this fraudulent statement is actionable because they have alleged a factual misrepresentation, and that they are not seeking to redress
harm to its reputation. Pl.’s Opp. at 8-9.
Plaintiff maintains that defendants committed
fraud when they did not adhere to SPLC’s own internal
definition when they categorized CIS as a hate group.
Compl. ¶¶ 18, 21. SPLC’s definition of “hate group” is:
“an organization that – based on its official statements
or principles, the statements of its leaders, or its activities – has beliefs or practices that attack or malign an
entire class of people, typically for their immutable
characteristics.” Id. ¶ 14. Plaintiff alleges that: being
an illegal immigrant is not an immutable characteristic, id. ¶ 15; CIS provides the public with information
regarding immigration in the United States, including
the “fiscal consequences of legal and illegal immigration,” id. ¶ 16; CIS’s motto is “pro immigrant, low immigration,” id.; and to the extent that CIS supports
reductions in legal or illegal immigration, those views
are consistent with bipartisan commissions. Id. ¶ 17.
From this, plaintiff asserts that defendants knew or

App. 14
should have known that the designation did not satisfy
the SPLC definition, and it concludes that the designation under those circumstances constituted a scheme
to defraud with the intent to destroy CIS financially.
Id. ¶¶ 18, 21, 22.
The Court agrees with defendants that plaintiffs
have failed to state a claim for the crime of wire fraud,
because plaintiff has failed to allege that any fraud
occurred. Plaintiff ’s allegations do not lend support
for its legal conclusion that defendants engaged in a
“scheme to defraud.” Significantly, the complaint is devoid of any allegation that defendants made a statement that was false. The upshot of the complaint is
that defendants advanced a conclusion that was debatable, and that this expression of a flawed opinion
harmed plaintiff ’s reputation.
First, defendants’ designation does not concern a
“fact” – whether or not SPLC adhered to its definition
to designate CIS to be a hate group is an entirely subjective inquiry. Indeed, when SPLC designated CIS
a hate group according to its own definition – and
not some legal or government definition – it was announcing that, in its view, CIS is a hate group.1 See De
Magno v. United States, 636 F.2d 714, 720 n.9 (D.C. Cir.
1980) (where defendant qualified her statement with
“it seemed to her,” thus making clear that what she had
1

Defendants point out that allowing a RICO claim to stand
based upon their hate group designation implicates First Amendment concerns. Defs.’ Mot. at 15-19. Because the Court finds that
plaintiff has failed to state a claim under RICO, it need not address defendants’ First Amendment arguments.

App. 15
to say was only an opinion, it did not constitute fraud).
And, it is not even clear from the complaint whether
defendants failed to adhere to their definition of a hate
group since it could encompass a wide variety of views
and behavior. Plaintiff asserts that being an immigrant is not an immutable characteristic, but the SPLC
definition does not require the presence of an immutable characteristic. Compl. ¶¶ 14-15.
Plaintiff argues that SPLC’s definition is “objective and factual” and cites the district court opinion in
United States v. Philip Morris for the contention that
the designation is actionable. Pl.’s Opp. at 9. In that
case, the court found that statements regarding the effects of cigarettes were factual enough to be actionable
as wire fraud. 449 F. Supp. 2d 1, 853 (D.D.C. 2006),
aff ’d in part, vacated on other grounds, 566 F.3d 1095
(D.C. Cir. 2009). The statements at issue concerned the
hazards of smoking and the company’s marketing policies: company officials maintained that nicotine was
not addictive; they denied that they marketed cigarettes to youths, and they marketed “low tar” cigarettes as safer than regular cigarettes, among others.
Id. at 852-53. The court recognized that typically, “a
statement of opinion cannot constitute fraud,” id. at
853, citing De Magno, 636 F.2d at 720 n.9, but found
that there was “overwhelming evidence” that defendants knew that their public statements were fraudulent, and that “where objective data is available to
disprove a statement or demonstrate that it is misleading at the time it was made, a public statement of

App. 16
opinion by a company spokesperson can constitute actionable fraud.” Id.
The statements at issue here do not come close to
those in Philip Morris. They do not depend upon objective data or evidence, and there is no basis upon which
to establish whether they were known to be false when
made. See Marks v. City of Seattle, No. C03-1701, 2003
WL 23024522 (W.D. Wash. Oct. 16, 2003) (finding failure to state a predicate act for a RICO claim where
plaintiff, a city employee, pled that defendant aired a
broadcast stating that she used city equipment for personal business, scheduled unnecessary overtime, and
used the City rental cars for personal use, because the
false statements pled were defamation or false light,
and not “false statements in the sense of fraudulent
misrepresentation”); see also Mansmann v. Smith, No.
Civ. A. 96-5768, 1997 WL 145009 (E.D. Pa. Mar. 21,
1997) (dismissing plaintiff ’s RICO claim for failure to
state a predicate offense and noting that “it is not clear
anything fraudulent is alleged; rather, plaintiffs appear to be listing a number of state law tort claims that
Defendants allegedly accomplished by means of mail
and wire services” where defendants allegedly made
false statements discrediting plaintiff ’s business with
the goal of injuring it).
Second, plaintiff has clearly tried to shoehorn a
defamation claim into the RICO framework. But the
D.C. Circuit has observed that a plaintiff “complaining
about a defamatory statement cannot end-run the requirements for a defamation claim” by pleading it as a
RICO violation. See Teltschik v. Williams & Jensen,

App. 17
PLLC, 748 F.3d 1285, 1288 (D.C. Cir. 2014). Other district courts have not looked favorably at attempts to do
so. See Kimberlin v. Nat’l Bloggers Club, No. GJH-133059, 2015 WL 1242763, at *9 (D. Md. Mar. 17, 2015)
(dismissing plaintiff ’s RICO claim for the additional
reason that it “reflect[ed] more of an attempt to spin
an alleged scheme to harm his reputation than it reflects a viable RICO claim”); Ritchie v. Sempra Energy,
No. 10-cv-1513, 2013 WL 12171757 at *4 (S.D. Ca.
Oct. 15, 2013) (finding that allegations of a smear
campaign, through a website and press releases, containing false statements regarding market analysis,
designed to injury the company’s good will and lower
its stock prices, did not state a predicate offense under
RICO); Kimm v. Lee, No. 04 CIV. 5724 (HB), 2005 WL
89386, at *4 (S.D.N.Y. Jan. 13, 2005), aff ’d sub nom.
Kimm v. Chang Hoon Lee & Champ, Inc., 196 F. App’x
14 (2d Cir. 2006) (dismissing plaintiff ’s RICO claim
where plaintiff alleged false statements perpetrated
to harm his reputation); Manax v. McNamara, 660
F. Supp. 657, 660 (W.D. Tex. 1987), aff ’d, 842 F.2d 808
(5th Cir. 1988) (where defendant coordinated false and
misleading press articles harmful to plaintiff, the
scheme was not a fraud on tangible or intangible
rights, but rather was damage to his reputation and
thus could not be a predicate act under RICO). And,
the law is clear that defamation is not a predicate act
under RICO. Hourani v. Mirtchev, 796 F.3d 1 (D.C. Cir.
2015). Thus, because plaintiff has failed to sufficiently

App. 18
allege wire fraud, plaintiff has failed to state a predicate offense to sustain its RICO claim.2
2

Defendants also argue that plaintiff has failed to state a
claim for wire fraud because it has not pled that defendants intended to obtain money or property through their scheme. Defs.’
Mot. at 10-11. Plaintiff argues that this is not a required element
for wire fraud. The D.C. Circuit has not ruled on this issue, and
the circuit courts currently stand divided. Given the other flaws
in the complaint, the Court need not wade into the thicket. Compare Monterey Plaza Hotel Ltd. P’ship v. Local 483 of Hotel Employees & Rest. Employees Union, 215 F.3d 923, 926-27 (9th Cir.
2000) (stating that the wire fraud statute “explicitly require[s] an
intent to obtain “money or property”); United States v. Keller, 14
F.3d 1051, 1056 (5th Cir. 1994) (The requisite intent to defraud
exists if the defendant acts “knowingly and with the specific intent to deceive, ordinarily for the purpose of causing some financial loss to another or bringing about some financial gain to
[himself].”); United States v. Walters, 997 F.2d 1219, 1227 (7th
Cir. 1993) (“Both the ‘scheme or artifice to defraud’ clause and the
‘obtaining money or property’ clause of § 1343 contemplate a
transfer of some kind. . . . A deprivation is a necessary but not a
sufficient condition of mail fraud.”); United States v. Baldinger,
838 F.2d 176, 180 (6th Cir. 1988) (finding that the mail fraud statute, which has virtually identical language to the wire fraud statute, “was intended by the Congress only to reach schemes that
have as their goal the transfer of something of economic value to
the defendant”) (internal quotation marks omitted) with Porcelli
v. United States, 404 F.3d 157, 162 (2d Cir. 2005) (finding that an
element of mail fraud is that money or property be the object of
the scheme, so that the crime is complete when a deprivation occurs), citing United States v. Hedaithy, 392 F.3d 580, 602 n.21 (3d
Cir. 2004) (“[A] mail fraud violation may be sufficiently found
where the defendant has merely deprived another of a property
right.”); United States v. Welch, 327 F.3d 1081, 1106 (10th Cir.
2003) (“Yet, the intent to defraud does not depend upon the intent
to gain, but rather, on the intent to deprive.”); United States v.
Stockheimer, 157 F.3d 1082, 1087-088 (7th Cir. 1998) (“An intent
to defraud does not turn on personal gain . . . all that matters is
that [the defendant] intended to inflict a loss.”).

App. 19
The Court’s conclusion is consistent with the D.C.
Circuit’s admonition regarding RICO claims premised
on mail fraud or wire fraud in general:
RICO claims premised on mail or wire fraud
must be particularly scrutinized because of
the relative ease with which a plaintiff may
mold a RICO pattern from allegations that,
upon closer scrutiny, do not support it. . . .
This caution stems from the fact that “[i]t will
be the unusual fraud that does not enlist the
mails and wires in its service at least twice.”
W. Assocs. Ltd. P’ship, ex rel. Ave. Assocs. Ltd. P’ship v.
Mkt. Square Assocs., 235 F.3d 629, 637 (D.C. Cir. 2001),
quoting Al-Abood ex rel. Al-Abood v. El-Shamari, 217
F.3d 225, 238 (4th Cir. 2000); see id. (“Although a RICO
claim may be based only on predicate acts consisting
exclusively of mail and wire fraud, scrutiny of such
claims is necessary, and not inconsistent with the
breadth of RICO.”).

II.

Plaintiff has not alleged a “pattern of
racketeering activity.”

Even if plaintiff stated a predicate offense, plaintiff ’s RICO claim fails because it has not alleged a “pattern of racketeering activity.” § 1962(c). In order to
establish a “pattern of racketeering activity” a plaintiff
must allege “at least two acts of racketeering activity
. . . within ten years.” 18 U.S.C. § 1961(5). And “in
addition to the requisite number of predicate acts,
the plaintiff must [also] show ‘that the racketeering

App. 20
predicates are related, and that they amount to or pose
a threat of continued criminal activity.’ ” Edmondson &
Gallagher v. Alban Towers Tenants Ass’n, 48 F.3d 1260,
1264 (D.C. Cir. 1995), quoting H.J. Inc. v. N.W. Bell Tel.
Co., 492 U.S. 229, 239 (1989).
In Edmondson, the D.C. Circuit outlined six factors that are relevant in determining the existence of
a “pattern of racketeering.” 48 F.3d at 1263. These factors are: “the number of unlawful acts, the length of
time over which the acts were committed, the similarity of the acts, the number of victims, the number of
perpetrators, and the character of the unlawful activity.” Id. at 1265, quoting Kehr Packages, Inc. v. Fidelcor,
Inc., 926 F.2d 1406, 1411-13 (3d Cir. 1991). The six factors are not dispositive; rather, they serve as a guide,
and courts are encouraged to evaluate cases using a
“fact-specific approach” that is both “flexible” and “commonsensical.” W. Assocs., 235 F.3d at 637. In some
cases, “some factors will weigh so strongly in one direction as to be dispositive.” Edmondson, 48 F.3d at 1265.
Applying this framework, the Edmondson Court
rejected a real estate developer’s RICO claim premised
on allegations that a tenants’ association illegally
blocked the sale of building. 48 F.3d at 1265. The real
estate developer accused the tenants’ association of
committing extortion, bribery, and perjury by “exploit[ing] [a] quiet-title action, holding the building
sale hostage and thereby attempting to force [the developer] to pay them off.” Id. at 1263-64. The D.C. Circuit affirmed the dismissal of the RICO claims because
“the single scheme alleged – designed to frustrate one

App. 21
transaction and inflicting a single, discrete injury on a
small number of victims – fail[ed] to meet RICO’s requirement of a ‘pattern of racketeering activity.’ ” Id.
Notably, the Court held that when a plaintiff merely
alleges a “single scheme, single injury, and few victims,” it is “virtually impossible for plaintiffs to state a
RICO claim.” Id. at 1265. This is precisely the case
here.
Plaintiff ’s complaint describes a single scheme: “to
falsely designate CIS a hate group and destroy it.”
Compl. ¶ 28. Plaintiff alleges that more than one blog
entry was posted to “carry out this conspiracy.” Id. ¶ 19.
But all of the actions described in the complaint involve a single alleged victim, and they were allegedly
aimed at accomplishing a “single discrete goal": the demise of CIS. Edmondson, 48 F.3d at 1265. Moreover,
plaintiff pleaded a discrete injury – loss of donations –
suffered by the victim. See Compl. ¶¶ 23-25. There are
only two alleged perpetrators here – defendants Beirich and Cohen. Id. ¶ 30. Finally, the alleged acts are
all of the same kind – they all are blog posts labeling
CIS as a hate group. Id. ¶ 19.
While plaintiff states in its complaint that the “attacks are ongoing and will continue,” this prediction is
not enough to support its legal conclusion that “they
may constitute an open-ended pattern of racketeering
required by 18 U.S.C. § 1961(5).” Compl. ¶ 28; see Kowal
v. MCI Commc’ns Corp., 16 F.3d 1271, 1276 (D.C. Cir.
1994), citing Papasan v. Allain, 478 U.S. 265, 286 (1986).
Even if a future post repeats the same information, it

App. 22
will still not be in a furtherance of the sole scheme alleged.
It is true that the Supreme Court has stated that
multiple schemes are not always necessary to demonstrate a pattern of racketeering. H.J., 492 U.S. at 241,
109 S.Ct. 2893 (finding that Congress did not intend
that “continuity” be shown only by proof of multiple
schemes, and that such an inflexible approach “appears nowhere in the language or legislative history of
the Act”). But that does not mean that the Edmondson
approach is not applicable in the appropriate case. In
W. Assocs., the D.C. Circuit acknowledged this statement in H.J.; it observed that Edmondson is “not to the
contrary,” and that “the number of schemes alleged remains a useful consideration.” 235 F.3d at 634. And,
the facts here do not support varying from Edmondson’s finding that a complaint alleging a single scheme,
injury, and victim fails to state a claim under RICO.
Accordingly, in light of the Edmondson factors, the
Court finds that plaintiff has failed to allege a “pattern
of racketeering.” See W. Assocs., 235 F.3d at 634 (dismissing RICO claim where plaintiff alleged single
scheme of fraudulent bookkeeping entries, resulting in
single injury to single set of victims); E. Savings Bank,
FSB v. Papageorge, 31 F. Supp. 3d 1, 13 (D.D.C. 2014)
(rejecting RICO claim because “plaintiff has only alleged that the defendants engaged in acts designed to”
achieve a “single discrete goal": “obtain[ing] control of
the Property from the plaintiff at a low price”).

App. 23
Because the Court finds that plaintiff failed to
allege a substantive RICO violation under Section
1962(c), it has failed to plead a conspiracy to violate RICO under Section 1962(d). See Papageorge, 31
F. Supp. 3d at 12-13 (dismissing RICO conspiracy
claim under § 1962(d) where plaintiff failed to plead a
RICO violation under 18 U.S.C. § 1962(a)-(c)). Accordingly, plaintiff ’s complaint is dismissed.
CONCLUSION
Because plaintiff has failed to plead a predicate offense and a pattern of racketeering activity, the Court
will grant defendants’ motion to dismiss the complaint.
A separate order will issue.
/s/ Amy B. Jackson
AMY BERMAN JACKSON
United States District Judge

App. 24
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
CENTER FOR
IMMIGRATION STUDIES,
Plaintiff,
v.
Richard COHEN, et al.,
Defendants.

)
)
)
)
)
)
)
)

Civil Action No.
19-0087 (ABJ)

ORDER
Pursuant to Federal Rule of Civil Procedure 12,
and for the reasons stated in the accompanying Memorandum Opinion, it is hereby
ORDERED that defendants’ motion to dismiss
[Dkt. # 11] is GRANTED. This is a final appealable
order.
SO ORDERED.
/s/ Amy B. Jackson
AMY BERMAN JACKSON
United States District Judge
DATE: September 13, 2019

